October 31, 2008

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

WILLIAM R. GILLIGAN
ACTING CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Handling of Suspicious Mail at the
         Huntsville Processing and Distribution Facility
         (Report Number SA-AR-09-001)

This report presents the results of our review of the Handling of Suspicious Mail at the
Huntsville Processing and Distribution Facility (P&DF) (Project Number
08YR001SA000). Our objective was to determine whether Postal Service personnel
followed proper policies and response procedures in handling suspicious mail
discovered at the Huntsville P&DF. Our review focused on events surrounding the
discovery of a suspicious package at the Huntsville P&DF on July 25, 2008, and the
actions of Postal Service personnel involved in the incident.

We conducted this self-initiated review to assess the risk to mail operations and the
safety and security of employees, mail, and critical assets. See Appendix A for
additional information about this review.

Conclusion

Huntsville P&DF personnel did not follow Postal Service policies and response
procedures for handling suspicious mail and unknown substances found at the facility
on July 25, 2008. Specifically, responsible Huntsville P&DF personnel:

   1. Did not initially contact the U.S. Postal Inspection Service, but instead called the
      local fire department.

   2. Improperly cleaned up the unknown spilled substance.

   3. Improperly handled and moved the suspicious package.
Handling of Suspicious Mail at                                                                        SA-AR-09-001
 the Huntsville Processing and Distribution Facility



This occurred because management at the Huntsville P&DF did not always participate
in and provide annual training and practice drills to employees to ensure they
understand procedures for handling suspicious mail,1 unknown substances, and
hazardous materials (HAZMAT).2 Specifically:

     • The four employees3 involved in the incident had not received annual suspicious
       mail training and did not participate in practice drills.

     • The supervisor involved in the incident had not completed required annual
       Hazardous Waste Operations and Emergency Response (HAZWOPER) training.

     • Although the responding HAZMAT team member had completed the required
       annual HAZWOPER training, xx xxxxxxxxx xx xxx xxxxxxxxxx xx xxxxxx xxxxx
       xxxxxxxxxx.4

Because employees did not follow policies and procedures for handling suspicious mail
and personnel at the Huntsville P&DF were not appropriately trained, there is an
increased risk of disruption to operations and to the safety and security of employees,
the mail, and other critical assets.

We recommend the Vice President, Southeast Area Operations, in consultation with the
Chief Postal Inspector:

1. Require management at the Huntsville Processing and Distribution Facility to
   participate in and provide annual training and practice drills to employees to ensure
   they understand procedures for handling suspicious mail, unknown substances, and
   hazardous materials.

Management’s Comments

Management partially agreed with the recommendation and stated they will not
establish a requirement for annual training but will provide refresher training as
situations identify a need. Further, management stated the Huntsville P&DF
management team has begun a training initiative which will include “Suspicious
Package Training” for all employees by October 31, 2008; 8-hour HAZWOPER training
for all Executive Administrative Service and 204-b5 employees; and refresher
HAZWOPER training for all HAZMAT team members. In addition, they stated the
Huntsville facility will increase the number of craft employees trained on HAZWOPER to
1
  Postal Service Memorandum of Policy - Suspicious Mail and Unknown Powders and Substances, May 2005.
2
  Postal Service policy requires HAZMAT training annually for responsible employees.
3
  One employee started working with the Postal Service approximately 1 month before the incident.
4
  Additionally, we reviewed training records of 19 managers and supervisors at the facility who were not involved in
the incident and determined none receive annual suspicious mail training and 18 did not complete annual
HAZWOPER refresher training, as required.
5
  204-b employees are acting supervisors.




                                                          2
Handling of Suspicious Mail at                                               SA-AR-09-001
 the Huntsville Processing and Distribution Facility


15. Employees will complete all training on or before November 30, 2008. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and the corrective actions should resolve
the issues identified in the report. Management’s plan to train all employees should
ensure they understand procedures for handling suspicious mail, unknown substances,
and HAZMAT. However, we believe establishing a specific frequency for suspicious
mail training(such as annually) would allow for a more proactive approach to preparing
personnel to handle suspicious mail; and decrease the risk to employees, customers,
the mail, and other critical assets.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We will report this physical safety and security risk as a non-monetary impact in our
Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Zane M. Hill
    John A. Grimes
    John F. Bolger
    Katherine S. Banks




                                                       3
Handling of Suspicious Mail at                                                 SA-AR-09-001
 the Huntsville Processing and Distribution Facility


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

On July 25, 2008, at approximately 3:00 a.m. Central Standard Time, a Postal Service
employee at the Huntsville P&DF notified the Xxxxxx Xxxxxxxxxx, Xxxxxxxxxxxx
Xxxxxxxxxx XXXXX, of a leaking package discovered in the parcel post room. The
package appeared to leak on three other packages. The XXX notified a member of the
on-site HAZMAT team and both individuals examined the packages, which had no
apparent odor or smoke. A mail handler shop steward subsequently arrived at the
incident, saw mail handlers working around the area of the leak, and asked the XXX to
clear the area of mail handlers pending identification of the unknown substance. The
XXX agreed and cleared the area of mail handlers.

To contain the spill, the HAZMAT team member put the packages in separate
containers and then mopped up the spill. While cleaning, the HAZMAT team member
observed that the floor seemed discolored in the area of the leak and informed the XXX.
The XXX went back to the affected area and noticed the floor was ashy grey where the
package had leaked and immediately moved the packages outside of the Postal Service
facility. Still unable to identify the substance, the XXX called 911 at approximately 4:15
a.m.

The Huntsville Fire Department (HFD) arrived and attempted, but was unable, to
contact the addressee on the package. The HFD HAZMAT team, with approval of the
XXX, opened the package and found four broken bottles, which they determined to be
medicine. As a result, three of the dampened packages were placed back in the
mailstream and the remaining package was turned over to an on-site HAZMAT team
member. See Appendix B for a photograph of HFD personnel responding to the
incident, which received local media coverage.

After the HFD cleared the incident, the XXX notified the U.S. Postal Inspection Service
and waited for further instructions for the disposition of the leaking package. Later that
same day, the Postal Inspection Service cleared the leaking package for delivery.

CRITERIA

Suspicious Mail

Postal Service Publication 167-B, Response Checklist Suspicious Mail and
Unknown Powders or Substances, September 2006: Provides a checklist for action
to take in the event of the discovery of suspicious mail or unknown substances.

Postal Service Memorandum, Tabletop Exercises – Suspicious Mail and Unknown
Powder or Substances, August 25, 2006: Requires facilities to certify completion of




                                                       4
Handling of Suspicious Mail at                                                                     SA-AR-09-001
 the Huntsville Processing and Distribution Facility


an awareness program, including stand-up talks and tabletop exercises, for suspicious
mail and unknown powders and substances.

Postal Service Poster 205-A, Immediate Response Actions Suspicious Mail and
Unknown Powders or Substances, August 2006: Provides the following guidance to
employees, supervisors, and managers for handling suspicious mail.

        Package - Don’t handle it. Isolate it.

        People - Clear the area of people. Notify your supervisor.

        Plan - Contact the Postal Inspection Service. Follow your local emergency
        action plan.

Postal Service Memorandum of Policy, Suspicious Mail and Unknown Powders
and Substances, May 2005: Provides policies and procedures regarding the handling
of suspicious mail, unknown powder and substances, and other leaking HAZMAT.
Management and employees must be periodically trained on suspicious mail and
unknown powder/substance response using tabletop exercises, stand-up talks, and
other communications. The Headquarters Office of Emergency Preparedness (OEP)6
will provide information on the frequency and required certification of these activities.

Hazardous Materials

Postal Service Safety Training Matrix, March 2008: Provides annual HAZWOPER
training requirements for employees to demonstrate their understanding of hazardous
material response procedures.

Postal Service Management Instruction EL-810-2006-3, Response to Hazardous
Materials Releases, March 2006: Describes procedures for planning and responding
to releases (spills and leaks) of HAZMAT originating from items placed in the
mailstream. Specifically, employees must not move, transport, handle, or clean up any
suspicious mail or unknown substances and must:

     • Immediately isolate the area where suspicious mail or unknown substances were
       found.

     • Notify a supervisor or manager, who must contact the Postal Inspection Service.




6
 In February 2007, the Postal Service consolidated OEP to form the Office of National Preparedness within the
Postal Inspection Service.




                                                         5
Handling of Suspicious Mail at                                                                  SA-AR-09-001
 the Huntsville Processing and Distribution Facility



Postal Service Integrated Emergency Management Plan (IEMP), January 2004: 7
The Postal Service established the IEMP as the all-hazard, comprehensive plan to
mitigate, prepare for, respond to, and recover from any natural or man-made disaster.
Facilities are required to develop specific annexes for each type of emergency that may
be experienced. Annex 3D: Hazardous Materials Spills and Leaks states that when a
hazardous material is suspected in the workplace, the supervisor is notified and directs
employees to a safe area. The supervisor calls the on-site spill and leak team to
identify the substance and, if they determine it is harmless, to clean it up. If the material
is hazardous or unknown, the supervisor notifies the safety officer, higher management,
and postal inspectors. If a resolution is not reached, management calls local first
responders to request a HAZMAT team.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service personnel followed proper
policies and response procedures in handling suspicious mail discovered at the
Huntsville P&DF on July 25, 2008. To accomplish our objective, we interviewed Postal
Inspection Service and Postal Service officials, including employees involved in the
incident, and reviewed policies and procedures for handling suspicious mail and
unknown substances. We also reviewed training records from the National Training
Database to determine whether personnel received training and guidance in handling
suspicious mail. Although we did not conduct extensive tests to determine the accuracy
of computer-generated data, we discussed the training records with applicable
personnel and compared the data to other source documents. As a result, we consider
the data sufficiently reliable to support the opinions and conclusions in this report.

We conducted this review from July through October 2008 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. Those standards require that we
plan and perform the review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our objective. We discussed our observations and conclusions with
management officials on October 7, 2008, and included their comments where
appropriate.




7
 In our audit report, Postal Service Continuity of Operations for the Great Lakes Area (Report Number
SA-AR-08-009, June 23, 2008), management stated they will issue national preparedness templates by June 2009.




                                                       6
Handling of Suspicious Mail at                                              SA-AR-09-001
 the Huntsville Processing and Distribution Facility


PRIOR AUDIT COVERAGE

In the past 3 years, the OIG issued two reports regarding suspicious mail and unknown
substances. In these reviews, we found personnel did not follow policies and
procedures for handling suspicious mail and unknown substances. In addition,
management did not establish an IEMP to ensure employees were familiar with policies
and procedures for effectively responding to suspicious mail incidents. Management
generally agreed with our recommendations to participate in and provide continuous
mandatory training and practice drills for employees to ensure they understand
procedures for handling suspicious mail and unknown substances. Management further
agreed to implement an IEMP that includes procedures for handling suspicious and
dangerous mail.

In addition, the U.S. Government Accountability Office (GAO) issued a report on Postal
Service guidance for suspicious mail. Overall, the report concluded that, although the
Postal Service had several guidelines on identifying and responding to suspicious mail,
personnel did not follow this guidance. The GAO recommended, and management
generally agreed to, further improving the Postal Service’s guidance related to
suspicious mail to ensure that personnel are prepared to respond to future incidents.

                                                                       Final Report
                   Report Title               Report Number                Date
                                    OIG Reports
Handling of Suspicious Powder Incident at
                                               SA-AR-07-005            July 11, 2007
the Wichita Falls Mail Processing Center
Handling of a Potentially Explosive
                                               SA-AR-07-001           March 29, 2007
Ordnance at the Dallas Bulk Mail Center
                                    GAO Report
U.S. Postal Service: Guidance on
                                                GAO-05-716             July 19, 2005
Suspicious Mail Needs Further Refinement




                                                       7
Handling of Suspicious Mail at                                                 SA-AR-09-001
 the Huntsville Processing and Distribution Facility


                        APPENDIX B: PHOTOGRAPH OF RESPONSE




                             Photo of HFD Responding to the
              Suspicious Packages at the Docking Area of the Huntsville P&DF
                             Courtesy of WAFF 48 News in Huntsville, Alabama




                                                       8
Handling of Suspicious Mail at                               SA-AR-09-001
 the Huntsville Processing and Distribution Facility


                         APPENDIX C: MANAGEMENT’S COMMENTS




                                                       9
Handling of Suspicious Mail at                              SA-AR-09-001
 the Huntsville Processing and Distribution Facility




                                                       10
